—
I

C@QCKLE

3 E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923,

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1453

CAL CARTAGE TRANSPORTATION EXPRESS, LLC;
CCX2931, LLC; K&R TRANSPORTATION
CALIFORNIA, LLC; KRT2931, LLC;

CMI TRANSPORTATION, LLC; CM2931, LLC,
Petitioners,

Vv.

THE PEOPLE OF THE STATE OF CALIFORNIA;
SUPERIOR COURT OF LOS ANGELES COUNTY,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION
FOR THE PEOPLE OF THE STATE OF CALIFORNIA in the above entitled case complies with
the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 8773 words,

excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of July, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska &v Chk
| RENEE J, GOSS 0. ( Ded cace ‘<

My Comm. Exp. September 5, 2023

 

Notary Public Affiant 41001
